                   AUDIT REPORT


                Audit of the NRC’s Warehouse Operations

                     OIG-09-A-09       March 31, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          March 31, 2009



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S WAREHOUSE OPERATIONS
                            (OIG-09-A-09)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Warehouse Operations.

The report presents the results of the subject audit. Agency comments provided at the
March 19, 2009, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Steven Zane, Team Leader, Financial and Administrative Audit Team, at
415-5912.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                               Audit of the Nuclear Regulatory Commission’s Warehouse Operations



EXECUTIVE SUMMARY

   BACKGROUND

         The Nuclear Regulatory Commission (NRC) maintains two warehouses,
         referred to as the main warehouse and the annex, located about a mile
         away from the agency’s main headquarters buildings. These warehouses
         are used to receive, store, and deliver property, equipment, and supplies
         needed for NRC operations. The main warehouse also contains a
         security lockup cage used to store sensitive property. As of February
         2009, the two warehouses contained almost 16,000 pieces of property
         and equipment with an initial acquisition cost of approximately $5.1 million.

         The NRC Office of Administration (ADM), Directorate for Space Planning
         and Consolidation, Property and Labor Services Branch, is responsible for
         managing warehouse operations. The Office of the Inspector General
         estimates that the total resources ADM dedicated to operating the
         warehouse amounts to approximately $1.1 million annually. These
         resources include NRC employee salaries, labor services contract costs,
         leases for each warehouse, leases for delivery vehicles, and security
         costs.

         ADM uses two information management systems to account for the
         agency’s property. The Space and Property Management System
         (SPMS) is NRC’s official property management information system.
         Warehouse staff use a separate dBase III application system that does not
         interface with SPMS to track the specific locations of warehouse property.


   PURPOSE

         The purpose of this audit was to determine whether NRC has established
         and implemented an effective system of internal controls for maintaining
         accountability and control of agency property stored in the warehouses.


   RESULTS IN BRIEF

         NRC’s warehouse operations support the agency’s mission by ensuring
         that property is received, stored, and delivered to NRC staff as needed.
         The warehouse also provides logistical support for office moves and
         assistance with special events. However, opportunities exist to:




                                         i
                       Audit of the Nuclear Regulatory Commission’s Warehouse Operations



       •   Enhance safety and security.

       •   Increase inventory accuracy and operational efficiency.

       •   Improve contract administration.

Safety and Security Evaluations Not Conducted and Segregation of
Duties Not Implemented

Federal law and guidance require that NRC evaluate the safety and
security of its facilities and use sound physical security practices to protect
agency property. However, NRC has not conducted the required periodic
safety inspections of the NRC main warehouse and annex or a required
security assessment of the NRC annex. Additionally, despite internal
control standards that require segregation of duties, warehouse staff,
responsible for the day-to-day operation of the agency’s warehouses, also
control and monitor the video surveillance system located at the main
warehouse. Management inattention to the required safety inspections
and security assessment as well as the failure to implement segregation of
duties, leaves NRC staff potentially vulnerable to workplace hazards, while
exposing NRC to a heightened risk of property loss.

Space and Property Management System Contains Incomplete and
Inaccurate Location Information

Property management system guidance and internal control standards
require agency personnel to record information accurately and timely to
maintain accountability and control over Government property. Despite
these requirements, NRC’s official property management system, SPMS,
contains incomplete and inaccurate location information. This condition
exists because:

       •   SPMS’ full capability is not being used.

       •   Property locations are changed in SPMS prior to actual property
           movement.

       •   Periodic SPMS monitoring measures have not been
           implemented.

Incomplete and inaccurate location information results in inefficient,
duplicative work efforts, heightens the risk for lost property and
information, and may result in unnecessary expense.




                                ii
                          Audit of the Nuclear Regulatory Commission’s Warehouse Operations



     Contract Administration Deficiencies

     NRC is required to administer the contract for warehouse support services
     in accordance with agency policy and the contract provisions. However,
     the following contract administration deficiencies exist:

           •   Incomplete contractor security packages are submitted to the
               Division of Facilities and Security.

           •   Registration procedures are not followed for unbadged
               contractor representatives.

           •   Contractor performance is not measured.

     These contract administration deficiencies exist because warehouse
     employees responsible for managing the contract have not completed the
     agency required project manager training. Without adhering to the
     required policy and contract provisions, NRC lacks assurance that
     contractors working at NRC facilities do not pose a security risk. In
     addition, NRC may be paying excess contract costs by failing to consider
     disincentive provisions contained in the contract.


RECOMMENDATIONS

     This report makes recommendations to improve the agency’s warehouse
     operations. A consolidated list of these recommendations appears in
     Section V of this report.


AGENCY COMMENTS

     At an exit conference on March 19, 2009, agency management stated
     their agreement with the findings and recommendations in this report.
     Management also provided information that has been incorporated into
     this report as appropriate.




                                   iii
      Audit of the Nuclear Regulatory Commission’s Warehouse Operations




[Page intentionally left blank.]




               iv
                        Audit of the Nuclear Regulatory Commission’s Warehouse Operations



ABBREVIATIONS AND ACRONYMS


       ADM     Office of Administration

       DFS     Division of Facilities and Security

       HR      Office of Human Resources

       GAO     Government Accountability Office

       MD      Management Directive

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General

       OSHA    Occupational Safety and Health Act

       PM      Project Manager

       SPMS    Space and Property Management System




                                 v
      Audit of the Nuclear Regulatory Commission’s Warehouse Operations




[Page intentionally left blank.]




               vi
                                       Audit of the Nuclear Regulatory Commission’s Warehouse Operations



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i
        ABBREVIATIONS AND ACRONYMS......................................... v
        I.     BACKGROUND .................................................................. 1
        II.    PURPOSE ......................................................................... 2
        III.   FINDINGS........................................................................... 3
                 A. SAFETY AND SECURITY EVALUATIONS NOT
                    CONDUCTED AND SEGREGATION OF DUTIES
                    NOT IMPLEMENTED ........................................................ 3

                 B. SPACE AND PROPERTY MANAGEMENT SYSTEM
                    CONTAINS INCOMPLETE AND INACCURATE
                    LOCATION INFORMATION ................................................ 9

                 C. CONTRACT ADMINISTRATION DEFICIENCIES ................... 13

        IV.    AGENCY COMMENTS..................................................... 18

        V.     CONSOLIDATED LIST OF RECOMMENDATIONS ......... 19

    APPENDICES

        A.     SCOPE AND METHODOLOGY ....................................... 20
        B.     BEST PRACTICES ........................................................... 22




                                                 vii
      Audit of the Nuclear Regulatory Commission’s Warehouse Operations




[Page intentionally left blank.]




              viii
                                Audit of the Nuclear Regulatory Commission’s Warehouse Operations


I.    BACKGROUND

                 The Nuclear Regulatory Commission (NRC) maintains two
                 warehouses, located about a mile away from the agency’s main
                 headquarters buildings, that receive, store, and deliver property,
                 equipment, and supplies needed for NRC operations. Along
                 with performing these day-to-day activities, warehouse staff
                 provide support for office relocations and special projects. In
                 addition, the warehouse staff facilitate the donation, destruction,
                 and abandonment of excess property. Excess property is
                 stored in an NRC warehouse while awaiting final disposition.

                         NRC Main and Annex Warehouses

                 The agency refers to its two warehouses as the main
                 warehouse and the annex. NRC’s main warehouse, the larger
                 facility, is approximately 22,000 square feet and contains
                 equipment,1 office furnishings, supplies, and systems furniture
                 used to construct office workstations. This main warehouse
                 also contains a security lockup cage with an open top (see the
                 photograph below and on page 6) used to store sensitive
                 property.2




                 Photograph 1: Security lockup cage within the main NRC warehouse

1
 NRC Management Directive (MD) 13.1, Property Management, defines accountable
property as any equipment, excluding furniture and supplies, that is complete in itself, is of a
durable nature with an expected life of 2 years or more, does not ordinarily lose its identity or
becomes a component of another article, and is not consumed in its useful life. Accountable
property is classified either as “sensitive” or as “non-sensitive” (e.g., microfiche reader, slide
projector).
2
 MD 13.1 defines sensitive property as property that is desirable for personal use and can be
easily removed from the premises (e.g., laptop computers, cell phones, etc.).
                                                1
                      Audit of the Nuclear Regulatory Commission’s Warehouse Operations


          NRC obtained the annex in 2008 to house equipment and
          furniture for relocations to newly acquired office space. The
          annex, the smaller of the two warehouses, is approximately
          7,000 square feet. The annex is not staffed on a daily basis,
          although warehouse employees work at the annex about twice a
          week.

          As of February 2009, the two warehouses contained almost
          16,000 pieces of property and equipment with an initial
          acquisition cost of approximately $5.1 million.

                 Resources Allocated

          OIG estimates that the total Office of Administration (ADM)
          resources dedicated to operating the warehouses amounts to
          approximately $1.1 million annually. These resources include
          NRC employee salaries, labor services contract costs, leases
          for each warehouse, leases for delivery vehicles, and security
          costs. ADM, Directorate for Space Planning and Consolidation,
          Property and Labor Services Branch, designates three full-time
          NRC employees to operate the warehouses. Furthermore, the
          Property and Labor Services Branch managed a warehouse
          labor services contract with Alutiiq International Solutions, LLC,
          to perform daily labor services, for the period March 1, 2008,
          through February 28, 2009. This contract provided three full-
          time contract personnel and allowed for obtaining additional
          support, as needed.

                 Information Management Systems Used

          ADM uses two information management systems to account for
          the agency’s property. The Space and Property Management
          System (SPMS) is NRC’s official property management
          information system. Warehouse staff use a separate dBase III
          application system that does not interface with SPMS to track
          the specific locations of warehouse property.


II.   PURPOSE

          The purpose of this audit was to determine whether NRC has
          established and implemented an effective system of internal
          controls for maintaining accountability and control of agency
          property stored in the warehouses.

          See Appendix A for a description of the audit scope and
          methodology.


                                     2
                       Audit of the Nuclear Regulatory Commission’s Warehouse Operations


III. FINDINGS

         NRC’s warehouse operations support the agency’s mission by
         ensuring that property is received, stored, and delivered to NRC
         staff as needed. The warehouse also provides logistical support
         for office moves and assistance with special events. However,
         opportunities exist to:

                   •    Enhance safety and security.

                   •    Increase inventory accuracy and operational
                        efficiency.

                   •    Improve contract administration.


    A. Safety and Security Evaluations Not Conducted and
       Segregation of Duties Not Implemented

         Federal law and guidance require that NRC evaluate the safety
         and security of its facilities and use sound physical security
         practices to protect agency property. However, NRC has not
         conducted the required periodic safety inspections of the NRC
         main warehouse and annex or a required security assessment
         of the NRC annex. Additionally, despite internal control
         standards that require segregation of duties, warehouse staff
         responsible for the day-to-day operation of the agency’s
         warehouses also control and monitor the video surveillance
         system located at the main warehouse. Management
         inattention to the required safety inspections and security
         assessment as well as the failure to implement segregation of
         duties, leaves NRC staff potentially vulnerable to workplace
         hazards, while exposing NRC to a heightened risk of property
         loss.

         Safety, Security, and Segregation of Duties Requirements

         NRC is required to evaluate the safety and security of its
         facilities and use sound physical security practices to protect
         agency property. A brief explanation of each of the relevant
         safety, security, and segregation of duties requirements follows:




                                      3
                               Audit of the Nuclear Regulatory Commission’s Warehouse Operations


                         Safety Requirements

                 Federal law3 and Executive Order 12196, Occupational safety
                 and health programs for Federal employees, require periodic
                 inspections of all agency workplaces by personnel with
                 equipment and competence to recognize hazards.

                 MD 10.130, Safety and Health Program Under the Occupational
                 Safety and Health Act, establishes the standards and
                 procedures for NRC's safety programs. This MD provides that
                 the Director, Office of Human Resources (HR), appoint an
                 Agency Safety and Health Program Manager, who is required,
                 to conduct periodic safety inspections of NRC facilities in
                 accordance with the Occupational Safety and Health Act
                 (OSHA).

                         Security Requirements

                 The Interagency Security Committee provides Federal guidance
                 in its Security Standards for Leased Space, which states that
                 security assessments must be performed prior to entering into a
                 new lease. Furthermore, Facility Level Determinations for
                 Federal Facilities states that agencies should make facility
                 security level determinations early in the space acquisition
                 process to (1) implement countermeasures, if required and (2)
                 reconsider the acquisition if minimum physical security
                 requirements cannot be met.

                 The Government Accountability Office (GAO) Standards for
                 Internal Control in the Federal Government explains the
                 importance of segregation of duties. This is a critical control
                 because key duties and responsibilities for authorizing,
                 processing, recording, and reviewing transactions and handling
                 any related assets need to be divided or segregated to reduce
                 the risk of error or fraud.

                 Evaluations Not Conducted and Segregation of Duties Not
                 Implemented

                 NRC has not conducted the required periodic safety inspections
                 of the main warehouse and annex or a required security
                 assessment of the annex. Additionally, the agency has not
                 implemented internal control standards that require segregation
                 of duties as related to the video surveillance system located in
                 the main warehouse.


3
    29 US Code of Federal Regulations 1960.8(c), Agency responsibilities.

                                              4
                             Audit of the Nuclear Regulatory Commission’s Warehouse Operations


                       Safety and Security Evaluations Not Conducted

                               Safety Inspections

               The Office of the Inspector General (OIG) interviewed and
               requested documentation from warehouse staff and HR
               representatives to determine if the required safety inspections of
               the warehouses have occurred. Warehouse staff recalled that
               safety inspections had been conducted in the past, but not
               recently. HR management confirmed that safety inspections of
               the warehouses had not been conducted recently.4

                               Security Assessment

               OIG interviewed ADM staff to determine if the required security
               assessments of the warehouses have occurred. Staff from
               ADM, Division of Facilities and Security (DFS), provided OIG
               with the Building Security Assessment of the main NRC
               warehouse, completed by a Federal Protective Service
               inspector on May 2, 2007. A previous security assessment had
               been completed on May 13, 2003. DFS managers explained
               that a security assessment for the NRC annex had not been
               completed and could not recall arranging for a security
               assessment when NRC leased the space in 2008.

               During a visit to the NRC warehouses, OIG identified
               opportunities to strengthen security within each warehouse. A
               brief description of each follows:

               o The low height of the open top of the security lockup cage in
                 the main warehouse, coupled with the placement of storage
                 racking against the outside of the cage, increases the risk of
                 theft for sensitive items (ADM staff noted that this risk is
                 mitigated, to a degree, by the warehouse access controls.)
                 The warehouse racking labeled in the photograph that
                 follows is approximately 6 feet above ground.




4
  The lease document for the main warehouse contained the Fire Protection Prelease Survey
that was last completed by General Services Administration on July 1, 2005.
                                            5
             Audit of the Nuclear Regulatory Commission’s Warehouse Operations




Photograph 2: Accessible space at the open top of the security
lockup cage located within the main NRC warehouse

o The annex does not have an intrusion detection system and
  a video surveillance system.

       Segregation of Duties Not Implemented

Despite internal control standards that require segregation of
duties, warehouse staff responsible for the day-to-day operation
of the agency’s warehouses also control and monitor the video
surveillance system located at the main warehouse. Installed
about 10 to 15 years ago, the video surveillance system at the
main warehouse consists of a time lapse video recorder, a
monitor, tapes, and video cameras located throughout the
warehouse. Warehouse personnel periodically change the
tapes and record over previously used tapes. A better security
control would be for the headquarters security guard staff to
remotely control and monitor the warehouse video surveillance
system.

Management Inattention Results in Vulnerability to Hazards
and Risk of Loss

Management inattention to the required safety inspections and
security assessment as well as the failure to implement
segregation of duties, leaves NRC staff potentially vulnerable to
workplace hazards (such as stacked items that may fall) while
exposing NRC to a heightened risk of property loss by its own
employees.



                            6
           Audit of the Nuclear Regulatory Commission’s Warehouse Operations


      Office of Human Resources Management

HR management has not taken necessary actions to complete
warehouse safety inspections although during this audit they
readily acknowledged their responsibility to do so. HR officials
stated that the agency currently lacks the in-house expertise to
conduct the inspections because NRC’s OSHA trained staff
member left NRC several years ago and has yet to be replaced.
HR is looking to recruit someone to fill the vacated position.
HR management committed to expedite the warehouse safety
inspections through an existing contract with an environmental
testing company that has the expertise to do the required safety
inspections.

      Office of Administration Management

ADM management did not take actions necessary to complete
the annex security assessment because they have not
implemented a process to identify this need when entering into
a lease. ADM management conveyed awareness of their
responsibility to complete the security assessment. They stated
that the agency’s immediate need to store newly acquired
systems furniture caused NRC to occupy the annex without first
completing a security assessment. Additionally, ADM stated
that since NRC staff do not work in the space every day, a
completed security assessment was not a priority. During the
course of this audit, ADM initiated the process for completing
the security assessment at the annex and anticipates that
Federal Protective Service can expedite its completion.

ADM management stated that the warehouse staff controls its
own video surveillance system because the warehouse
surveillance video system is not integrated with the NRC
headquarters video system. The main warehouse has an
intrusion detection alarm system that is monitored remotely by
security staff who respond if alerted to a warehouse alarm. In
addition, the headquarters security guard staff makes daily
rounds to the warehouses. ADM staff stated that an upgrade,
allowing for remote security guard monitoring of the main
warehouse video surveillance system, is part of federally
mandated physical protection updates and should be completed
in October 2009.




                          7
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


      Safety Hazards and Security Risk of Loss

Management inattention to warehouse safety and security
matters leaves NRC staff potentially vulnerable to workplace
hazards, while exposing NRC to a heightened risk of property
loss. Without a current safety inspection performed by
personnel with the proper equipment and competence to
recognize hazards, staff, property, and the warehouse facilities
may not be adequately protected from workplace hazards.
Without a security assessment, staff and the annex may not be
adequately protected from threats. Additionally, an increased
risk of property loss exists by allowing warehouse staff to
monitor and operate the video security surveillance system
installed at NRC’s main warehouse.


Recommendations

OIG recommends that the Executive Director for Operations:

1.   Conduct the required safety inspections for the NRC main
     warehouse and annex.

2.   Conduct the required security survey of the NRC annex.

3.   Designate the headquarters security guard staff to monitor
     and operate the warehouse video surveillance system.




                           8
                             Audit of the Nuclear Regulatory Commission’s Warehouse Operations


       B.    Space and Property Management System Contains
             Incomplete and Inaccurate Location Information

               Property management system guidance and internal control
               standards require agency personnel to record information
               accurately and timely to maintain accountability and control over
               Government property. Despite these requirements, NRC’s
               official property management system, SPMS, contains
               incomplete and inaccurate location information. This condition
               exists because:

                       •   SPMS’ full capability is not being used.

                       •   Property locations are changed in SPMS prior to
                           actual property movement.

                       •   Periodic SPMS monitoring measures have not been
                           implemented.

               Incomplete and inaccurate location information results in
               inefficient, duplicative work efforts, heightens the risk for lost
               property and information, and may result in unnecessary
               expense.

               Requirements for Complete and Accurate Information

               The Financial Systems Integration Office,5 Property
               Management Systems Requirement, stipulates that a property
               management system must be able to collect accurate, timely,
               complete, reliable, and consistent information to establish and
               maintain accountability and control over Government property.
               Additionally, GAO Standards for Internal Control requires that
               transactions be recorded accurately and timely.

               SPMS Location Information Is Incomplete and Inaccurate

               OIG used judgmental sampling to test the accuracy of SPMS
               location information of NRC property stored in the warehouses.
               The following property areas were tested:

               •   Equipment stored in the main NRC warehouse (including
                   security lockup cage items).


5
 The Financial Systems Integration Office, formerly known as the Joint Financial
Management Improvement Program, is a joint undertaking of the Office of Management and
Budget, GAO, the Department of the Treasury, and the Office of Personnel Management, to
work in cooperation with each other and with other agencies to improve financial
management practices throughout the Government.
                                            9
                                Audit of the Nuclear Regulatory Commission’s Warehouse Operations


                 •   Furniture and supplies stored in both NRC warehouses.

                 The results of these tests show that NRC’s official property
                 management system, SPMS, contains incomplete and
                 inaccurate location information.

                          Incomplete Location Information in SPMS

                 In conducting tests of the equipment inventories, OIG found that
                 SPMS lacks complete warehouse location information.
                 Specifically, SPMS identifies equipment stored in either the
                 main warehouse or the annex with one location name, "WHSE"
                 (meaning warehouse). SPMS does not differentiate between
                 the two warehouses with separate names for location
                 designations. Additionally, specific warehouse location
                 designations such as aisle, bay, shelf, or bin are not maintained
                 in SPMS even though the system has the capability to store this
                 information.

                 Currently, NRC warehouse staff use a dBase III application that
                 is separate from SPMS to track and locate agency equipment
                 within the warehouse aisles, shelves and bins. This dBase III
                 application is an unofficial and antiquated, "stovepipe" system
                 that has deficiencies. First, technical support for the dBase III
                 application software is difficult to obtain because the application
                 was created such a long time ago. Second, data from the
                 system will not print out on laser printers; a dot matrix printer
                 with 14-inch wide “green bar” paper must be used for any
                 printed reports.

                          Inaccurate Location Information in SPMS

                 OIG judgmentally sampled 64 equipment items out of a universe
                 of 320 pieces of equipment stored in the main NRC warehouse.
                 Our test disclosed that 8 of 64 items (12.5 percent) shown in
                 SPMS as being located in the warehouse could not be located.6
                 Warehouse staff explained that even though paperwork
                 requesting transfer of these items had already been processed,
                 the items had not yet been physically relocated to the
                 warehouse. Property history documentation verified that the
                 eight items were all in the process of being transferred and
                 warehouse staff subsequently located the eight items for OIG
                 verification.




6
 Since this is not a statistical sample, the results of this test were not projected to the
universe.
                                                10
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


Another test revealed additional inaccurate location information
in SPMS. Specifically, SPMS identified 58 standalone system
units as being stored in the main warehouse since September
2006. These items had a total acquisition cost of approximately
$35,000. However, further investigation determined that the 58
standalone system units were not physically located in the main
warehouse as SPMS indicated. The corresponding paperwork
indicated that the 58 standalone system units had been
transferred to a headquarters building after being stored in the
warehouse for approximately 3 months. OIG verified the
existence of 56 of these 58 system units and notified agency
representatives of the 2 missing system units so that they could
take appropriate action.

Reasons for Incomplete and Inaccurate Location
Information

Location information is incomplete and inaccurate in SPMS
because:

•   Full capability of SPMS is not being used.

•   Property locations are changed in SPMS prior to actual
    property movement.

•   Periodic monitoring of the accuracy of SPMS warehouse
    information has not been fully implemented.

       Full Capability of Property System Not Used

Location information is incomplete in SPMS because staff do
not fully use the system capabilities to differentiate between the
main warehouse and the annex or to record specific property
location information for equipment stored in the warehouses.
The SPMS "Sub location" field does not adequately describe
property locations. The SPMS "Sub location" field could be
populated with aisle, bay, shelf, or bin location data, allowing for
specific location information to be recorded in SPMS. However,
OIG review indicated that the "Sub location" field is not used in
this manner.

       Property Locations Changed Prior to Actual Movement

Property location information is inaccurate in SPMS because
staff change property locations and accounts in SPMS prior to
physically relocating the property into the warehouse. For
example, when staff at headquarters receive a request to


                           11
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


transfer equipment to the warehouse, they immediately begin to
process the request by changing the location and account in
SPMS. The request is later sent to the warehouse. The
process to transfer equipment to the warehouse may take a few
days based on availability of resources. Upon delivery,
warehouse staff then verify receipt of the equipment and mail
the completed request back to headquarters. ADM staff noted
that the delay would have to occur on the front end or the tail
end of the property movement since transfers cannot be made
instantaneously.

       SPMS Monitoring Not Fully Implemented

Another reason that property location information is inaccurate
in SPMS is that warehouse staff have not developed and
implemented monitoring procedures to periodically produce
reports to facilitate accountability and control of warehouse
property (i.e., all property stored in the warehouse for more than
1 year). OIG concludes that such periodic monitoring would
serve to help identify property location errors.

Adverse Consequences of Faulty Location Information

Incomplete and inaccurate location information results in
inefficient, duplicative work efforts; heightens the risk for lost
property and information; and may result in unnecessary
expense. Accurate and reliable information on the location of
property is essential for NRC to assure the optimum use of
property and the efficient use of staff time.

Recommendations

OIG recommends that the Executive Director for Operations:

4.   Maintain the agency’s dBase III system application until
     location information for all agency property stored in the
     warehouses is reflected in SPMS.

5.   Use only SPMS to identify property locations in the
     warehouses.

6.   Develop and implement a procedure for timely and
     accurate recording of property movements.

7.   Produce periodic reports to facilitate accountability and
     control of warehouse property.



                           12
                   Audit of the Nuclear Regulatory Commission’s Warehouse Operations


C.   Contract Administration Deficiencies

      NRC is required to administer the contract for warehouse
      support services in accordance with agency policy and the
      contract provisions. However, the following contract
      administration deficiencies exist:

      •   Incomplete contractor security packages are submitted to
          DFS.

      •   Registration procedures are not followed for unbadged
          contractor representatives.

      •   Contractor performance is not measured.

      These contract administration deficiencies exist because
      warehouse employees responsible for managing the contract
      have not completed the agency required project manager (PM)
      training. Without adhering to the required policy and contract
      provisions, NRC lacks assurance that contractors working at
      NRC facilities do not pose a security risk. In addition, NRC may
      be paying excess contract costs by failing to consider
      disincentive provisions contained in the contract.

      Contract Administration Requirements

      NRC is required to administer the contract for warehouse labor
      services in accordance with agency policy and the contract
      provisions. NRC policies and the agency’s contract with Alutiiq
      International Solutions, LLC (Alutiiq), contain specific
      requirements pertaining to:

      •   Submittal of preliminary background checks.

      •   Contractor entry into NRC facilities.

      •   Contract performance measurement.

      According to MD 11.1, NRC Acquisition of Supplies and
      Services, it is the responsibility of the NRC PM to ensure that
      these contract administration requirements are met. The
      contract with Alutiiq names the PM and two alternates
      responsible for contract administration.




                                  13
                              Audit of the Nuclear Regulatory Commission’s Warehouse Operations


                        Submittal of Preliminary Background Checks

                NRC’s warehouse labor services contract requires Alutiiq to
                perform preliminary background checks of contractor employees
                proposed to work under the contract. It is the PM’s
                responsibility to make sure that two copies of each of the
                contractor’s pre-screening results are provided to DFS, along
                with the NRC badge access application package.

                        Contractor Entry into NRC Facilities

                NRC policy contains registration requirements for contractor
                representatives who are awaiting badge access approval. The
                agency policy includes guidance for entry into NRC facilities and
                for presenting identification. MD 12.1, NRC Facility Security
                Program, requires that unscreened contractors7 enter facilities
                by reporting to the appropriate guard or receptionist desk to
                complete the required registration process, which includes
                presenting valid picture identification. Unscreened contractors
                who enter NRC facilities must be issued a badge that is
                displayed in plain view at all times.

                        Contract Performance Measurement

                In accordance with NRC’s contract with Alutiiq, the PM is
                required to measure contractor performance against established
                standards for property documentation, work prioritization,
                security package completion, and warehouse duty completion.
                The PM may apply disincentives, such as payment deduction, if
                the standards are not met.

                Contract Administration Deficiencies

                NRC has not administered the contract for warehouse support
                services in accordance with agency policy and the contract
                provisions. The following contract administration deficiencies
                exist:

                •   Incomplete contractor security packages are submitted to
                    DFS.




7
  For purposes of this report, OIG uses the term “unscreened contractors” to refer to
contractor representatives who are awaiting badge access approval. This differs from
MD 12.1, NRC Facility Security Program, which uses the term “uncleared contractors” to refer
to contractor representatives awaiting badge access approval.
                                             14
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


•   Registration procedures are not followed for unbadged
    contractor representatives.

•   Contractor performance is not measured.

       Incomplete Security Packages Submitted

The NRC PM routinely does not submit complete badge access
application packages to DFS when seeking access approval for
warehouse contractor employees. Although packages have
been submitted for a number of individuals to receive building
access, none of the packages included the contractor’s
preliminary background check as required by the contract. The
PM was not familiar with the requirement to obtain preliminary
background checks.

The purpose of the preliminary background check is to preclude
individuals with a criminal history from working at NRC facilities.
The preliminary background check identifies the following
information related to an individual’s history: felony and alcohol
related arrests, record of any military court-martial convictions,
illegal use of narcotics or other controlled substances, and
delinquency on any Federal debts or bankruptcy. This
screening provides a reasonable indication of whether
contractor representatives will eventually receive NRC
unescorted access approval.

During this audit, OIG learned of two cases where preliminary
background checks were not submitted for individuals who were
later denied access to work at NRC. Prior to NRC’s access
denial, these individuals worked in NRC headquarters facilities
on at least 36 occasions.

       Registration Procedures Not Followed

The PM and warehouse staff do not routinely follow agency
registration procedures for unbadged contractors. When
unscreened contractors are called to work only at the NRC
warehouse, they report directly to the warehouse without first
registering with a guard or receptionist to show their
identification. The PM and warehouse staff said they were not
concerned about the risk posed by unscreened contractor
employees who work only at the NRC warehouse because
contractor representatives are escorted while working in the
warehouse.




                           15
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


      Contractor Performance Not Measured

NRC’s PM does not measure contractor performance in
accordance with standards identified in the contract provisions
pertaining to property documentation, work prioritization,
security package provisions, and accuracy of warehouse duties.
The PM and an alternate PM stated that they do not measure
contractor performance and that they were not aware of the
potential for disincentive deductions.

For example, the contract contains a standard that requires the
contractor to provide the PM with documentation containing
signatures for all property picked-up or delivered. This provision
calls for the PM to review the number of occurrences that the
standard is not met, and take payment deductions accordingly.
This contract also allows the PM to reduce payments to Alutiiq
when the contractor is not timely in submitting security
packages. The PM and one of the alternate PMs are now
aware of the disincentive provisions and have expressed an
interest in using them.

The PM did not measure performance; therefore records do not
exist for the agency to disallow any contract costs related to
contractor poor performance.

Project Manager Training Not Completed

Contract administration deficiencies exist because the PM and
alternate PMs have not completed the agency required project
manager training. NRC requires that prospective project
managers complete a minimum of five acquisition training
courses to obtain Project Manager Certification. One of these
courses addresses security requirements and the monitoring of
contractor work performance. In addition, project managers are
required to complete recertification training every 3 years.
Although the PM was grandfathered in as a certified PM in
2002, he was due to complete the recertification training in
August 2005. However it did not occur. It is noted that one
alternate PM became a certified project manager in February
2009, after OIG brought this matter to the agency’s attention.

Security Risks and Potential for Excess Contract Costs

Without following the required policy and contract provisions,
NRC lacks assurance that contractors working at NRC facilities
do not pose a security risk. In addition, NRC is potentially
paying excess contract costs by failing to consider disincentive
provisions contained in the contract.

                           16
            Audit of the Nuclear Regulatory Commission’s Warehouse Operations


OIG concludes that having unscreened contractor
representatives working in the warehouse, coupled with the low
height of the security cage and the placement of racking (as
mentioned in Finding A), results in an increased risk of theft of
items contained in the security cage. ADM management has
completed a request to purchase and install wire mesh panels
or fencing to enclose the security cage.

Recommendations

OIG recommends that the Executive Director for Operations:

8. Require the Project Manager and alternates to fulfill NRC’s
   initial and recertification mandatory training requirements for
   Project Managers.

9. Modify the security cage and/or the placement of storage
   racks in the main NRC warehouse to prevent easy access to
   sensitive property stored inside the security cage.




                           17
                    Audit of the Nuclear Regulatory Commission’s Warehouse Operations


IV.   AGENCY COMMENTS

         At an exit conference on March 19, 2009, agency management
         stated their agreement with the findings and recommendations
         in this report. Management also provided information that has
         been incorporated into this report as appropriate.




                                   18
                     Audit of the Nuclear Regulatory Commission’s Warehouse Operations


V.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1. Conduct the required safety inspections for the NRC main
            warehouse and annex.

         2. Conduct the required security survey of the NRC annex.

         3. Designate the headquarters security guard staff to monitor
            and operate the warehouse video surveillance system.

         4. Maintain the agency’s dBase III system application until
            location information for all agency property stored in the
            warehouses is reflected in SPMS.

         5. Use only SPMS to identify property locations in the
            warehouses.

         6. Develop and implement a procedure for timely and accurate
            recording of property movements.

         7. Produce periodic reports to facilitate accountability and
            control of warehouse property.

         8. Require the Project Manager and alternates to fulfill NRC’s
            initial and recertification mandatory training requirements for
            Project Managers.

         9. Modify the security cage and/or the placement of storage
            racks in the main NRC warehouse to prevent easy access to
            sensitive property stored inside the security cage.




                                    19
                   Audit of the Nuclear Regulatory Commission’s Warehouse Operations

                                                                        Appendix A
SCOPE AND METHODOLOGY

       OIG obtained and analyzed pertinent laws, regulations,
       authoritative guidance, NRC policies and procedures, and prior
       relevant NRC OIG reports to identify Federal and agency
       requirements and best practices relevant to warehouse
       operations.

       OIG used judgmental sampling to test the accuracy of SPMS
       location information of NRC property stored in the warehouses.
       Additionally, OIG reviewed the Office of Administration’s
       property program metrics and performed various tests of
       internal controls associated with property recorded in SPMS.

       OIG conducted interviews with warehouse staff and selected
       headquarters officials to:

       •   Gain an understanding of NRC’s warehouse operations.

       •   Determine current issues, problems, or known deficiencies.

       •   Assess internal controls.

       OIG interviewed staff from other Federal agencies to learn of
       their best practices related to warehouse operations. These
       best practices are described in Appendix B for the agency’s
       consideration.

       Internal controls related to the audit objective were reviewed
       and analyzed. Throughout the audit, auditors were aware of the
       possibility or existence of fraud, waste, or misuse in the
       program.

       The work was conducted from September 2008 to January 2009
       in accordance with generally accepted government auditing
       standards. Those standards require that we plan and perform
       the audit to obtain sufficient, appropriate evidence to provide a
       reasonable basis for our findings and conclusions based on our
       audit objectives. We believe that the evidence obtained
       provides a reasonable basis for our findings and conclusions
       based on our audit objectives.

       The work was conducted by Steven Zane, Team Leader; Vicki
       Foster, Audit Manager; Yvette Mabry, Senior Auditor; Michael
       Steinberg, Senior Auditor; and Robert Woodward, Senior
       Auditor. We performed the audit work at NRC Headquarters
       and both warehouses located in Rockville, Maryland.

                                  20
 Audit of the Nuclear Regulatory Commission’s Warehouse Operations




[Page intentionally left blank.]




                21
                                                                               Audit of the Nuclear Regulatory Commission’s Warehouse Operations




                                                                                                                                     Appendix B
BEST PRACTICES
              National Aeronautics
                                              Federal Aviation              Department of Commerce         General Services Administration
                   and Space
                                               Administration
                 Administration
Training     • Property Management    •   Training Video for civilian   •    Required training for        • Initial logistics training courses.
               Training Video: NASA       and contract employees on          Property Management
               Property, Everyone’s       use of the property system.        Officer, Accountability      • Professional property
               Business.                                                     Officer, and Custodian.        management certifications.

             • Recommended                                              •    Government Ethics,
               Courses:                                                      Applications in Personal
                                                                             Property Accountability –
                •   Warehousing,                                             USDA.
                    Operations and
                    Disposal –                                          •    Property Official
                    USDA.                                                    Certification Program.

                •   Personal                                            •    E-learning course in
                    Property                                                 development soon,
                    Management,                                              Employee Property
                    Utilization and                                          Training.
                    Disposal – GSA.

Procedures   NASA Procedural          Policy and Procedures Guide:      •    Department Personal          • Policy and procedures ensures
             Requirements: NASA       FAA uses a policy guide as they        Property Management            development, control, and
             Materials Inventory      update and revise training for         Manual.                        dissemination of property
             Management Manual.       various process functions.                                            management instructions, policies
                                                                        •    Personal Property              and guidance.
                                                                             Procedures Manual,
                                                                             Office of the Secretary.     • GSA suggests review of internal
                                                                                                            operations to identify areas in
                                                                                                            which policy guidance is needed.




                                                                  22
